-50 56 ORIGINAL

Vi 'y

■*

^

'

Supreme Court, U.S

No.

FILED

JUN 2 1 2021
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

VinLftA't-

— PETITIONER

(Your Name)
vs.
(One-

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

U> A'4-el

Coor{ of- App ^ 15

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

y4rUwr

(/ceA^

(Your Name)

chaSQo

Qr,

(Address)

Ve H~e l/'11 e ,AJC(City, State, Zip Code)

(Phone Number)

*3 ^ H

1

QUESTION(S) PRESENTED
AutoZone, Defendant, violated Title VII of the Civil Rights Act of 1964.
AutoZone negligently violated EEOC Laws Under Civil Rights Act of 1964, in
regards to Harassment, Discipline and Discharge, Job Assignments and
Promotions, Retaliation.

2

LIST OF PARTIES
[ tj'All parties appear in the caption ofthe case on the cover page.
[ ] All parties do not appear in the caption of the cover page. A list of all parties to
the proceeding in the court whose judgement is the subject of this p etition is as
follows.

RELATED CASES
Arthur Vincent v. AutoZone inc., No. 5:20-CV-186-M,United States District
Court for the Eastern District ofNorth Carolina WesternDivision. Judgement
entered 9/30/2020.
Arthur Vincent v. AutoZone inc., No. 20-2213, United States Court ofAp peals for
the Fourth Circuit. Judgement entered 05/27/2021.

4

TABLE OF CONTENTS
OPINIONS BELOW
JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR WRIT GRANTING WRIT
CONCLUSION.
INDEX TO APPENDICES
APPENDIX A

Decision of the United States Court ofAppeals

APPENDIX B

Decision of the United States District Court

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[^fFor cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

A

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[
unpublished.
(.0
The opinion of the United States district court appears at Appendix____ to
the petition and is
[ ] reported at S'-2o -CV- Iffc-Ai Ecf 21
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
J or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was os- in- <lqx i
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
, and a copy of the
Appeals on the following date: ------------------order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)
(date) on
to and including_______
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix----------[ ] A timely petition for rehearing was thereafter denied on the following date:
_______________________, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)in
(date) on
to and including____
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

5

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
1. IPSALOQUITOR
2. Title VII Civil Rights Act of 1964
3. 42U.S.C. § 2000e-2(a)(l)
IPSA LOQUITOR
To prove res ipsa loquitornegligence, theplaintiffmust prove 3 things:
The incident was ofa type that does not generally happen without negligence
It was caused by an instrumentality solely in defendant’s control
The p laintiffdid not contribute to the cause.
Ttitle VII Civil Rights Act of 1964
Unlawful Employment Practices under SEC. 2000e-2. [Section 703]
(a) Employer practices
It shall be an unlawful employment practice for an employer (1) to fail or refuse to hire or to discharge any individual, or otherwise to
discriminate against any individual with respect to his comp ensation, terms,
conditions, orprivileges of employment, because of such individual's race, color,
religion, sex, or national origin; or

6

(2) to limit, segregate, or classify his employees or applicants for employment in
any way which would deprive or tend to deprive any individual of employment
opportunities or otherwise adversely affect his status as an employee, because of
such individual's race, color, religion, sex, or national origin.
(k) Burden ofproof in disparate impact cases
(l) (A) An unlawful employmentpracticebased on disparate impact is established
under this subchapter only if(i) a complaining party demonstrates that a respondent uses a particular
employment practice that causes a disparate impact on thebasis ofrace, color,
religion, sex, or national origin and the respondent fails to demonstrate that the
challenged practice is job related for the p osition in question and consistent with
business necessity; or
(ii) the complaining party makes the demonstration described in subparagraph (C)
withrespectto an alternative employment practice and the respondent refuses to
adopt such alternative employment practice.

7

STATEMENT OF THE CASE
AutoZone, defendant, violated Title VII of theCivil Rights Act of 1964 against
Plaintiff, Arthur Vincent. Arthur Vincent complained to the United States District
court ofNorth Carolina on allegations of Harassment, Retaliation, Discrimination
due to race. Plaintiff also sought reliefunder Res Ipsa Loquitor. Plaintiff, Arthur
Vincent, ask the court ofAppeals to consider allegations against Defendant
AutoZone, in that AutoZone, did violate Civil Rights Title VII by discriminating
against Plaintiffon the grounds ofRace, Harassment, Equal Pay. Previous review
denies allegations against AutoZone, and Plaintiff allegations dismissed as Moot,
The court unjustly rules out plaintiff allegations on the grounds that Plaintiff does
not have direct evidence to Apply 42 U.S.C. § 2000e-2(a)(l). Plaintiffhas
rigorously provided sufficient evidence to construed allegations of adverse
employment treatment and civil harassment and retaliation on Plaintiff and
emotional distress from unfair employment practice and bigotry actions such as
police involvement saying Plaintiff is Trespassing while clocked in and working.
Case 5:20-cv-00186-M Document 25 Filed 12/29/20 Page 2 of 8 Judgment denies
that Plaintiffwas subject to Preferential treatment from Defendant, AutoZone, in
that Plaintiffhad a positive Job performance while Michael Iannone did not and

8

Commercial Sales Manager Gregory does not measure the same work p erformance
for the comp any as Plaintiff. Judgment from Judge Myers suggests that because
my title is not store manager that those over me have more p ower, which gives
way to preferential treatment in that all members, including Plaintiff are members
of Management, and Plaintiffwas not treated the same among other white
members in that Plaintiffwas the comp laining p arty and Plaintiffwas the one
Threatened. Plaintiff was on the phone with Senior Members ofManagement
Craig Clemmons, Regional Manager, and Bill Odom District Manager. Plaintiff
was told he would not get paid for that day and refused to clock out as Plaintifftold
them how both Store level managers were shouting in Plaintiff face and Plaintiff
dogged and invasive act that would cause destmction to p laintiffs face if he did not
move. Members ofManagement involved were not punished for their racial
unethical treatment on plaintiff, in that Plaintiffwas treated harsh from senior
members ofManagement Craig Clemmons, Gilbert Howell, Bill Odom, using
racial tactics to get rid ofPlaintiffbecauseplaintiffwas comp laining about why he
needed to go home for no reason and forced to leave while the other white
members who caused the harm werepermitted to continue working without
punishment, Senior Management was against Plaintiffbecause ofhis -race in that
Plaintiffwas equally situated among it's other white co workers, in that Plaintiff say
in his complaint United States CourtofAppeals case 20-2213 25 Filed 12/29/20

9

Page 3 of 8 plaintiffwas disregarded, but the other white members voice was heard
and illegally acted up on. AutoZone created a Hostile work environment having
Plaintiff arrested by making somethingup to get Plaintiff to Leave. Issue 2.
Plaintifffurther introduces evidence of unfair employment practice in that Plaintiff
was store manager until a new store manager was found, p laintiffwas offered
Commercial sales Manager position and then told someone else with less
experience in Store Operations being set apart by race, was given the job and
Plaintifftrained and gave advice to Commercial Sales Manager. Plaintiffis
connecting racial adverse actions in how the events happened and was not treated
as a member of Management nor a employer for AutoZone but was treated very
different by Senior Management on differences of skin color and firing for no
reason andmakinglies to the Police saying “Arthur if you don’tleave we will call
the Cops for Trespassing” see Appendix in case 5:20-CV-l 86-Mpage 31-35.
Plaintiffprovides significant evidence of a hostile work environment for doing the
job AutoZone wanted him to do and that is to take care of the customer. AutoZone
refused to send home Micael Iannone, store Manager, and Ronnie Commercial
Sales Manager, as their time to leave on schedule was reached. Plaintiff Talked
with Regional Manager Craig Clemmons who said I don't have to make a deal with
you after p laintiff said he would leave if he got p aid for th e rest of his hours for
that day as Plaintiffwas closing manager for the store and Manager of Completing

10

Inventory Matrix. Plaintiffwas trained by a store Manager David Sosa who was
moved to a new location and was left as Manager in Charge. AutoZone directly
violates 42 U.S.C. -§ 2000e-2(a )(1) prima facie case of discrimination under Title
VIT: (1) membership in a protected class; (2) satisfactory job performance; (3)
adverse employment action; and (4) different treatment from similarly situated
employees outside the protected class." Coleman v. Md. Court ofAppeals, 626 F
.3d 187,190 (4th Cir. 2010) in that better treatment was given to the guys of
different color.
Issue3. AutoZone forced plaintiff off the schedule and said a investigation was
taken place for a week. When Plaintiffsat down the HR manager Gilbert Howell,
he told Plaintiffto make sure my phone was off. Gilbert had written statements
from the managers Plaintiffwas involved with and not one ofthose statements was
from Plaintiffand was later asked to sign a letter of termination Plaintiff refused
because his rights were being denied and unfair and had meetings with
Unemployment office with AutoZone, because did not give Unemployment to
Plaintiff. (k)BURDEN OF PROOF IN DISPARATE IMPACT CASES (1) (A)An
unlawful employment 'practice based on disparate impact is established under this
subchapter only if- (i) a complaining party .demonstrates that a respondent uses a
particular employment practice that causes a disparate impact on the basis ■ ofrace,
color, religion, sex, or national origin and the respondent fails to demonstrate that

11

the challenged practice is job related for the position in question and consistent
with business necessity; or (ii) the complaining party makes the demonstration
described in subp aragraph (C) with resp ect to an alternative emp loyment p ractice
and the respondent refuses to adopt such alternative emp loyment practice. (B) (i) ,
With resp ect to demonstrating that a p articular emp loyment p ractice causes a
disp arate imp act as described in subparagraph (A)(i), the comp laining p arty shall
demonstrate that each particular challenged employment practice causes a
disp arate imp act, excep t that ifthe comp laining p arty can demonstrate to the court
that the elements of a resp ondent's decision-making process are not capable of
separation for analysis, the decision-making process may be analyzed as one
emp loyment practice. AutoZone fails to demonstrate evidence of it's employment
practice of violation of disparate of imp act, while Plaintiffbears proof, there was
no reason to terminate emp loyee by simp ly terminating on terms of false
misconduct and that was from the unemployment office see attached Appendix in
CaseNo: 5:20-CV-186-MECF Doc 11 with the unemployment office and
statements. AutoZone said I left the company and if I did not leave, I would be
fired for misconduct. AutoZone is a publicly traded company and Plaintiffwas told
•he was on private property while working, Bigotry was used a racial adverse
emp loyment practice by saying We will call the cops without offering another type
of remedy and not being strict with the actual harass ers. No one from the comp any

12

reached out to remedy the situation. I just kept doing my job until the cop s were
called to arrest me and put me in Handcuffs to go to Jail. No cops were called on
the other emp loyees who were white and actually did the Harm. There is direct
evidence to apply Res Ipsa Loquitur 1. Disregarding Plaintiffcomplaint to upper
management and scrutinized, harassed, and arrested could have been mitigated by
not ganging up on p laintiffwithout supporting evidence to have p laintiff arrested
and terminated. 2. Defendant intentionally and willfully used unlawful law to get
p laintiff arrested and regarded the other Management ideas over Plaintiff. 3.
Plaintiff was within right to work and disagreed with management biased decision
of tresp assing while working Under Title VII Emp loyment Practices Prohibited by
EEOC under Discipline and Discharge that “F or example, if two emp loyees
commit a similar offense, an employer many not discipline them differently
because of their race, color, religion, sex (including gender identity, sexual
orientation, and pregnancy), national origin, age (40 or older), disability or genetic
information.”. AutoZone committed this action by arresting p laintiffwho was
black and not punishing the other white members who committed the acts of
Harassment and retaliation.

13

REASONS FOR GRANTING THE PETITION
AutoZone violated title VII of The Civil Rights Act of 1964. Plaintiff case was
dismissed in the United States Court ofAppeals for not filing an appeal timely.
Plaintiffwas under the impression that all postage sent by United States Postal

14

S ervice would be p ostmarked as Plaintiff mailed documents within the 3 0 -day
appealperiod. UnitedStates Court of Appeals District clerk marked received on
Nov 6,2020 and filled on Nov 9,2021. It usually takes 6 to 7 days to receive
mailed items and would p ut given mailed items with the 3 0 -day p eriod for filing
with the Court ofAppeals.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

L-to-lo 2)

